No. IN THE SUPREME COURT OF THE
UNITED STATES
DWAYNE LAMAR WILLIAMS, SR.,
Petitioner
v.
COMMONWEALTH OF VIRGINIA
Respondent
CERTIFICATE OF SERVICE
I, Dale Jensen, a member of the Bar of this Court,
certify that on August 23, 2019, forty copies of a
Petition for Writ of Certiorari in the above styled
case and a copy of this certificate were hand
delivered to the police booth at the north side of
the US Supreme Court building and received by
police officer, Stappler, for delivery to the Clerk’s
Office.
I further certify that three true and correct copies
of the Petition for Writ of Certiorari was sent by
United States Mail on this date to:
Attorney General’s Office
Counsel for Respondent
900 East Main Street
Richmond, Virginia 23219
Executed on August 23, 2019
/s/Dale R. Jensen
Dale R. Jensen
DALE JENSEN, PLC
606 BULL RUN
STAUNTON, VA 24401
(434) 249-3874
djensen@jensenjustice.com
Counsel for Petitioner

